U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

April 1, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Benjamin Drake Daley v. United States of America,
S.Ct. No. 20-7377

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on March 4,
2021, and placed on the docket on March 9, 2021. The government’s response is due on April 8,
2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including May 10, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7377
DALEY, BENJAMIN DRAKE
USA

GLEN ALLEN
5423 SPRINGLAKE WAY
BALTIMORE , MD 21212
410-802-6453
GLENALLENLAW@GMAIL.COM
LISA M. LORISH
ASSISTANT FEDERAL PUBLIC DEFENDER
401 E. MARKET STREET
SUITE 106
CHARLOTTESVILLE, VA 22902
434-220-3388
LISA_LORISH@FD.ORG

